FEDERAL PUBLIC DEFENDER
WESTERN DISTRICT OF OKLAHOMA
SUSAN M. OTTO
FEDERAL PUBLIC DEFENDER
Death Penalty Federal
Habeas Corpus Division:
Reply To: X
215 Dean A. McGee
Suite 707 Old Post Office Building
Oklahoma City, Oklahoma 73102
(405) 609-5975
Fax: (405) 609-5976

Main Office:
Reply To:
215 Dean A. McGee
Suite 109 Old Post Office Building
Oklahoma City, Oklahoma 73102
(405) 609-5930
Fax: (405) 609-5932

Federal Transfer Center
Parole Revocation Docket:
Reply To:
215 Dean A. McGee
Suite 109 Old Post Office Building
Oklahoma City, Oklahoma 73120
(405) 680-4047
Fax: (405) 680-4082

March 18, 2020
Mr. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Tommy Sharp, Petitioner v. Jimmy Harris, Respondent, Case No. 19-1105 (capital case)

Dear Mr. Harris:
Pursuant to Rules 30.4 and 15.3 of the Rules of the Supreme Court, undersigned counsel
for Respondent, Emma V. Rolls, hereby requests an extension of time for thirty (30) days in which
to respond to the Petition for Writ of Certiorari filed in the above-captioned case.
The Petitioner’s petition was filed March 2, 2020, 21 days earlier than due, and docketed
March 9, 2020. The Respondent’s Brief in Opposition is currently due April 9, 2020. Counsel for
Respondent respectfully requests a 30-day extension, which would render the Brief in Opposition
due Monday, May 11, 2020. The extension is justified for the following reasons.
Respondent’s counsel of record is the supervisor of the Capital Habeas Unit of the Federal
Public Defender’s Office for the Western District of Oklahoma, which entrails numerous
administrative and supervisory functions, including an increased workload litigating a challenge to
the newly released lethal injection protocol for Oklahoma capital inmates. Ms. Rolls is also cocounsel on a certiorari petition currently due May 25, 2020, in Harmon v. Sharp, Supreme Court
Case No. 19A1011. Further, Ms. Rolls is the lead attorney in Tommy Sharp, Petitioner v. Roderick
Smith, Respondent, Supreme Court Case No.19-1106, wherein the Brief in Opposition is due the
same date on which this case is currently due. Thank you for your consideration.
Sincerely,

s/ Emma V. Rolls
Emma V. Rolls
Assistant Federal Public Defender
Western District of Oklahoma

